424

997 FEDERAL REPORTER, 3d SERIES

Third, even if any confusion about the
extent of Hernandez’s injury and his consequent ability to assist in loading lobster
traps survived the district court’s curative
instruction, it is highly unlikely that any
hypothetical misapprehension by a juror
would have had any bearing on the outcome of the case. The prosecution did not
discount the possibility that at some point
lobster traps may have been present on
the boat, and in fact during closing argument reminded the jury ‘‘the defense witness [Valentin] himself came up here and
told you that lobster traps can be used to
disguise drug trafficking.’’ Whether or not
Hernandez would have been able to lift the
lobster traps was a tangential matter and
not one that would have affected the outcome of the case.

District of Massachusetts, F. Dennis Saylor IV, Chief Judge, of perjury and fraud
and misuse of visas, permits, and other
documents. Defendant appealed.

In sum, the fleeting misstatement does
not warrant a new trial.

(4) defendant’s substantial rights were not
burdened by expert’s description of
phenomenon of genocide denial;

CONCLUSION

(5) defendant was not entitled to relief on
basis of cumulative error;

For the reasons stated above, the judgments of conviction are affirmed.

,
UNITED STATES of America,
Appellee,

Holdings: The Court of Appeals, Barron,
Circuit Judge, held that:
(1) district court acted within its discretion
in admitting testimony of expert witness that perpetrators of genocide used
common defense of claiming to be protecting victims;
(2) district court acted within its discretion
in admitting testimony of expert witness that perpetrators of genocide were
of mixed ethnic descent;
(3) expert did not bolster government witnesses’ testimony;

(6) defendant’s doubling down on false
statements in later proceeding was itself additional significant obstructive
behavior; and
(7) record was sufficient to overcome district court’s failure to specify which
statements defendant made at trial it
found were perjurious.
Affirmed.

v.
Jean Leonard TEGANYA,
Defendant, Appellant.
No. 19-1689
United States Court of Appeals,
First Circuit.
May 17, 2021
Background: Defendant was convicted in
the United States District Court for the

1. Criminal Law O1153.12(3)
Manifest abuse of discretion standard
of review applied to district court’s decision to admit portions of testimony from
expert witness to which defendant raised
contemporaneous objection in his trial on
charges of perjury and fraud and misuse of
visas, permits, and other documents. 18
U.S.C.A. §§ 1546(a), 1621(1), 1621(2).

Appendix A
1

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

2. Criminal Law O474.3(1)
An expert’s opinion that another witness is lying or telling the truth ordinarily
is inadmissible because the opinion exceeds the scope of the expert’s specialized
knowledge and therefore merely informs
the jury that it should reach a particular
conclusion. Fed. R. Evid. 702, 704(b).
3. Criminal Law O474.5
District court acted within its discretion in treating testimony of expert witness that perpetrators of genocide used
common defense of claiming to be protecting victims as merely providing context
that might prove counter-intuitive to layperson, in defendant’s trial on charges of
perjury and fraud and misuse of visas,
permits, and other documents, since witness did not purport to be testifying about
defendant specifically, who testified in that
way, in providing any of that testimony
and court specifically instructed jury that
expert’s testimony that it was common defense for genocide perpetrators to argue
that they had defended or protected certain persons of ethnic group was ‘‘background information’’ and did not ‘‘say anything about what the defendant did or did
not do.’’ Fed. R. Evid. 702, 704(b).
4. Criminal Law O476.6
District court acted within its discretion in treating testimony of expert witness that perpetrators of genocide were of
mixed ethnic descent as merely providing
context that might prove counter-intuitive
to layperson, in defendant’s trial on
charges of perjury and fraud and misuse of
visas, permits, and other documents; although defendant was of mixed ethnic descent, district court reminded jury that
expert’s testimony was being permitted to
provide ‘‘context and background’’ as
‘‘broad-spread set of generalizations to
help you understand things’’ but that it did
not ‘‘answer how a specific person acted or

425

felt or what that person’s motives were.’’
Fed. R. Evid. 702, 704(b).
5. Criminal Law O1036.6
On plain error review, testimony by
expert that, in his research, he did not
come across reports of Rwandan government in wake of genocide attempting to
coerce witnesses to testify against those
suspected of participating in genocide was
not bolstering of government witnesses’
testimony that they had not been so pressured, in defendant’s trial on charges of
perjury and fraud and misuse of visas,
permits, and other documents, since,
among other things, defendant presented
his own expert witness, who testified that
Rwandan government generally was considered to have coerced witnesses to testify against suspected perpetrators of genocide, and district court instructed jurors
that it ultimately was for them to decide
whether to credit expert testimony and
whether to believe individual witnesses.
Fed. R. Evid. 702, 704(b).
6. Criminal Law O1036.6
Plain error review applied to admission of portions of expert testimony to
which defendant did not object at his trial
on charges of perjury and fraud and misuse of visas, permits, and other documents.
18 U.S.C.A. §§ 1546(a), 1621(1), 1621(2).
7. Criminal Law O1030(1)
A defendant on plain error review
must show (1) an error, (2) that is clear or
obvious, (3) which affects his substantial
rights, and which (4) seriously impugns the
fairness, integrity, or public reputation of
the proceeding.
8. Criminal Law O1130(5)
Court of Appeals would not consider
defendant’s more prejudicial than probative challenges to purported instances of
expert commenting on witness credibility,
on appeal of his conviction on charges of

Appendix A
2

426

997 FEDERAL REPORTER, 3d SERIES

perjury and fraud and misuse of visas,
permits, and other documents, since defendant merely asserted in his opening brief
that expert testimony was more prejudicial
than probative, he did not develop any
argument that testimony lacked probative
value, and he did not explain why prejudice it caused to his defense was unfair.
18 U.S.C.A. §§ 1546(a), 1621(1), 1621(2);
Fed. R. Evid. 702, 704(b).
9. Criminal Law O1036.6
Defendant’s substantial rights were
not burdened in his trial on charges of
perjury and fraud and misuse of visas,
permits, and other documents, as required
for relief on plain error review, by expert’s description of phenomenon of genocide denial, which he explained at trial
was ‘‘idea that an individual or a group
would claim that a genocide that is historically known to have occurred did not occur’’; even if that evidence had only limited probative value, government noted in
its closing argument that ‘‘both sides
agree’’ that, although the genocide did not
reach city in Rwanda in which defendant
lived until after it had reached other parts
of the country, ‘‘when it did, it was fierce,’’
and defense counsel also made clear that
defendant was not disputing that Rwandan genocide occurred.
18 U.S.C.A.
§§ 1546(a), 1621(1), 1621(2); Fed. R. Evid.
403, 702, 704(b).
10. Criminal Law O1186.1
Individual errors, insufficient in themselves to necessitate a new trial, may in
the aggregate have a more debilitating
effect.
11. Criminal Law O1186.1
Defendant was not entitled to relief
from his convictions on charges of perjury
and fraud and misuse of visas, permits,
and other documents on basis of cumulative error with regard to admission of
handful of statements by expert witness in

course of 18-day trial involving 34 witnesses in which defense had ample opportunity to cross-examine expert and presented expert of its own, particularly
where final instructions were issued to
jury that were strong and clear on jurors’
duty to properly weigh credibility of witnesses and purported errors were not preserved for consideration on appeal. 18
U.S.C.A. §§ 1546(a), 1621(1), 1621(2); Fed.
R. Evid. 702, 704(b).
12. Sentencing and Punishment O761
Two-level, obstruction-of-justice enhancement could be applied to defendant’s
sentence after he was convicted on charges
of perjury and fraud and misuse of visas,
permits, and other documents for lying
under oath to protect himself from punishment for lying under oath. 18 U.S.C.A.
§§ 1546(a), 1621(1), 1621(2); U.S.S.G.
§ 3C1.1.
13. Criminal Law O1042.3(1)
After being convicted on charges of
perjury and fraud and misuse of visas,
permits, and other documents, defendant
waived any challenge on appeal to application of obstruction-of-justice sentencing
enhancement based on contention that it
must be construed to not be triggered by
perjurious statements that repeated those
for which he had been convicted because
any other construction would violate his
federal constitutional right to testify in his
own defense. U.S. Const. Amend. 6; 18
U.S.C.A. §§ 1546(a), 1621(1), 1621(2);
U.S.S.G. § 3C1.1.
14. Sentencing and Punishment O761
Two-level, obstruction-of-justice enhancement could be applied to defendant’s
sentence after he was convicted on charges
of perjury and fraud and misuse of visas,
permits, and other documents on basis
that defendant not only testified unequivocally that he was never member of ruling

Appendix A
3

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

political party that perpetrated that genocide and that he never saw atrocities being
committed at hospital, but he also elaborated on each point, and jury, in reaching
verdict in convicting defendant, necessarily
concluded that his testimony in that regard was false beyond reasonable doubt;
although district court did not specify
which statements defendant made at trial
it found were perjurious, record filled in
gaps. 18 U.S.C.A. §§ 1546(a), 1621(1),
1621(2); U.S.S.G. § 3C1.1.

APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT
OF
MASSACHUSETTS,
[Hon. F. Dennis Saylor, IV, U.S. District
Judge]
Christine DeMaso, Assistant Federal
Public Defender, for appellant.
Alexia R. De Vincentis, Assistant United
States Attorney, with whom Andrew E.
Lelling, United States Attorney, was on
brief, for appellee.
Before LYNCH, KAYATTA, and
BARRON, Circuit Judges.
BARRON, Circuit Judge.
Jean Leonard Teganya (‘‘Teganya’’) appeals his convictions and sentence for
three counts of perjury in violation of 18
U.S.C. § 1621 and two counts of fraud and
misuse of visas, permits, and other documents in violation of 18 U.S.C. § 1546(a).
The convictions are based on his alleged
failure to disclose his role in the Rwandan
genocide to immigration authorities. We
affirm.

427

father was Hutu, Teganya is considered
Hutu as well.
In July 1994, while a third-year medical
student, Teganya left his home country
during the Rwandan genocide, which targeted the country’s Tutsi population, for
Congo. From Congo, Teganya traveled to
Kenya and India before obtaining a fake
Zimbabwean passport and flying to Canada in 1999.
Once in Canada, Teganya applied for
asylum in that country, but Canadian authorities denied his application, first in
2002 and then, after a series of appeals,
finally in 2012. The ground for the denial
was that Teganya ‘‘would not have survived’’ in Rwanda in 1994 ‘‘if he was not
perceived as sharing the common intention
to kill Tutsi and moderate Hutu.’’
On August 3, 2014, Teganya, who had
remained in Canada despite having been
denied asylum there, crossed the U.S.-Canadian border in Houlton, Maine. He was
apprehended by a U.S. Border Patrol
agent while he was walking down a road
within a few miles of the international
border. Teganya told the agent that he had
crossed the border illegally and that he
was a refugee. He then applied for asylum
in the United States.

I.

To apply for asylum, Teganya was required to complete a Form I-589. One of
the questions on the form asks:
Have you or your family members ever
belonged to or been associated with any
organizations or groups in your home
country, such as, but not limited to, a
political party, student group, labor union, religious organization, military or
paramilitary group, civil patrol, guerilla
organization, ethnic group, human rights
group, or the press or media?

The following facts are not in dispute.
Teganya was born in Rwanda in 1971 to a
Tutsi mother and Hutu father. Because his

Teganya answered that question ‘‘[y]es.’’
The form then asks for a description of the
‘‘level of participation, any leadership or

Appendix A
4

428

997 FEDERAL REPORTER, 3d SERIES

other positions held and the length of time
you or your family members were involved
in each organization or activity.’’ In response, Teganya wrote:
My father was the local President (formerly Kibilira District) of [the Mouvement Républicain National pour la Démocratie
et
le
Développement
(‘‘MRND’’)] from 1991 to 1994. As a
student, I belonged to the Red Cross
Youth Section from 1986 to 1991. I was
president of the Red Cross Youth Section from 1989 to 1990. I will submit a
detailed declaration prior to my asylum
hearing.
Teganya did not divulge any political
connection with the MRND 1 party of his
own.
Form I-589 also asks:
Have you, your spouse or your
child(ren) ever ordered, incited, assisted
or otherwise participated in causing
harm or suffering to any person because
of his or her race, religion, nationality,
membership in a particular social group
or belief in a particular political opinion?
That question is relevant to what is
known as ‘‘the persecutor bar,’’ which prohibits the grant of asylum to an individual
who has engaged in persecution against
another on account of a statutorily protected ground. See 8 U.S.C. § 1158(b)(2)(A)(i)
(providing that a noncitizen who has ‘‘ordered, incited, assisted, or otherwise participated in the persecution of any person
on account of race, religion, nationality,
membership in a particular social group, or
political opinion’’ is ineligible to apply for
asylum).
Teganya answered the question ‘‘[n]o.’’
He also verbally stated, while under oath
in the bond hearing in connection with his
1.

The MRND party is the Hutu-dominated
political party that controlled the Rwandan

asylum application on September 16, 2014,
that his father had belonged to the MRND
party but that he had not. He further
testified at the proceeding that while he
was in Rwanda during the genocide he had
not witnessed civilians being turned over
to the military to be killed and that he had
not personally seen any violence being carried out by government authorities or others at the National University Hospital, in
which he had worked as a medical student,
because the atrocities that were committed
there were carried out at night.
On September 27, 2017, Teganya was
charged in a five-count indictment in the
District of Massachusetts for two counts of
fraud and misuse of visas, permits, and
other documents in violation of 18 U.S.C.
§ 1546(a); two counts of perjury in violation of 18 U.S.C. § 1621(2); and one count
of perjury in violation of 18 U.S.C.
§ 1621(1). The counts under 18 U.S.C.
§ 1546(a) and 18 U.S.C. § 1621(2) alleged
that he had failed to disclose in his asylum
application that he was personally a member of the MRND party and the Interahamwe, a youth militia wing of the MRND
party; and that he had falsely stated in
that application that he had never personally ordered, incited, assisted, or otherwise
participated in causing harm or suffering
to another because of that individual’s
membership in a particular social group.
The count under 18 U.S.C. § 1621(1) alleged that he falsely stated at his immigration proceeding, while under oath, that he
had never belonged to a political party in
Rwanda and that he had not observed
atrocities at the National University Hospital while he was in that country during
the genocide.
government when the genocide broke out.

Appendix A
5

429

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

Teganya pleaded not guilty to each
count, and his case proceeded to trial,
which lasted eighteen days. He testified in
his own defense at the trial, which focused
on the extent of his involvement with the
genocide in Rwanda. The jury nevertheless
convicted Teganya on all five counts on
April 5, 2019.
At sentencing, the District Court imposed a prison term of 97 months, which
was at the high end of the sentencing
range that it had calculated for him under
the U.S. Sentencing Guidelines. The District Court based that range in part on a
two-level enhancement to his base offense
level under the Guidelines that the District
Court determined applied for obstruction
of justice. See U.S. Sent’g Guidelines Manual § 3C1.1 (U.S. Sent’g Comm’n 2018)
(imposing the enhancement where a defendant ‘‘willfully obstructed or impeded, or
attempted to obstruct or impede, the administration of justice with respect to the
investigation, prosecution, or sentencing of
the instant offense of conviction’’ and
where the ‘‘obstructive conduct’’ was related to either the ‘‘offense of conviction and
any relevant conduct’’ or ‘‘a closely related
offense’’). In explaining why that enhancement applied, the District Court pointed to
the discrepancies between Teganya’s testimony on his own behalf at trial and ‘‘the
2.

3.

Federal Rule of Evidence 702 provides: ‘‘A
witness who is qualified as an expert TTT may
testify in the form of an opinion or otherwise
if: (a) the expert’s scientific, technical, or other specialized knowledge will help the trier of
fact to understand the evidence or to determine a fact in issue; (b) the testimony is based
on sufficient facts or data; (c) the testimony is
the product of reliable principles and methods; and (d) the expert has reliably applied
the principles and methods to the facts of the
case.’’
Federal Rule of Evidence 704(b) provides:
‘‘In a criminal case, an expert witness must
not state an opinion about whether the defendant did or did not have a mental state or

testimony taken as a whole,’’ which it stated that it ‘‘believe[d]’’ and which included
‘‘testimony that [Teganya] participated in
multiple murders and rapes’’ and committed atrocities against Tutsis, and that Teganya was an MRND member.
The District Court entered judgment on
July 2, 2019. Teganya filed a timely notice
of appeal on July 8, 2019. See Fed. R. App.
P. 4(b)(1)(A)(i). We have jurisdiction over
his appeal from his convictions under 28
U.S.C. § 1291 and over his appeal from his
sentence under 28 U.S.C. § 3742(a).
II.
We begin with the challenges that Teganya brings to his convictions in which he
argues that they must be vacated due to
certain statements that were made at trial
by Dr. Phil Clark (‘‘Clark’’), who testified
for the government as an expert witness
regarding the Rwandan genocide and its
aftermath. Teganya does not question
Clark’s qualifications to testify as an expert on those matters. He instead contends
that certain discrete statements that Clark
made during his testimony concern matters that are not the proper subject of
expert testimony under Federal Rules of
Evidence 702 2 and 704(b),3 are inadmissible under Rule 403,4 or both.5
condition that constitutes an element of the
crime charged or of a defense. Those matters
are for the trier of fact alone.’’
4.

Federal Rule of Evidence 403 provides:
‘‘The court may exclude relevant evidence if
its probative value is substantially outweighed
by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue delay, wasting time,
or needlessly presenting cumulative evidence.’’

5.

Teganya does not distinguish between his
arguments under Rule 702 and Rule 704(b)
and so we treat them as a single contention

Appendix A
6

430

997 FEDERAL REPORTER, 3d SERIES

Teganya contends first that the District
Court erred in permitting Clark at certain
points in his testimony at trial to comment
on the credibility of Teganya’s own testimony, because such commentary was not
the proper subject of expert testimony under Rules 702 and 704(b). Teganya points
specifically to Clark’s testimony that it was
‘‘quite a common phenomenon during the
genocide that many Hutu perpetrators
would also at some stage during the genocide have harbored or protected Tutsi
friends, Tutsi neighbors, Tutsi family
members’’; that ‘‘it was a common defense
of many accused to say I could not have
committed these genocide crimes of which
I am accused because I was known to be
protecting these Tutsi’’; and, in response to
the question whether he was ‘‘familiar with
the theory that individuals could not [have
engaged in genocidal acts] if they came
from mixed ethnicities,’’ that this ‘‘was a
very common line of defense for genocide
suspects.’’

any of this testimony, and we conclude
that the District Court acted within its
discretion in treating the testimony as
merely providing context that might prove
counter-intuitive to a layperson. See Shay,
57 F.3d at 132 (explaining that the ‘‘fundamental question’’ that a district court faces
in evaluating whether ‘‘a proposed expert’s
testimony will assist the trier of fact is
‘whether the untrained layman would be
qualified to determine intelligently and to
the best degree, the particular issue without enlightenment from those having a
specialized understanding of the subject
matter involved’ ’’ (alteration omitted)
(quoting Montas, 41 F.3d at 783)); see also
United States v. Tetioukhine, 725 F.3d 1, 7
(1st Cir. 2013) (‘‘[T]he relevance of expert
testimony regarding cultural matters is
context-dependent and must be assessed
on a case-by-case basis.’’).

[2, 3] ‘‘An expert’s opinion that another
witness is lying or telling the truth is
ordinarily inadmissible TTT because the
opinion exceeds the scope of the expert’s
specialized knowledge and therefore merely informs the jury that it should reach a
particular conclusion.’’ United States v.
Gonzalez-Maldonado, 115 F.3d 9, 16 (1st
Cir. 1997) (quoting United States v. Shay,
57 F.3d 126, 131 (1st Cir. 1995)). Clark did
not purport to be testifying, however,
about Teganya specifically in providing

[4] Moreover, to the extent that there
was any risk that these aspects of Clark’s
testimony might be understood to have
been addressing Teganya’s own testimony,
we note that the District Court specifically
instructed the jury that Clark’s testimony
that it was a common defense for genocide
perpetrators to argue that they had defended or protected certain Tutsis was
‘‘background information’’ and did not ‘‘say
anything about what the defendant did or
did not do.’’ In addition, when Clark further testified that it was not uncommon for
those who had participated in the genocide
to be of mixed ethnic descent, the District
Court ‘‘remind[ed] the jury’’ that his testimony was being permitted to provide ‘‘context and background’’ as ‘‘a broad-spread
set of generalizations to help you understand things’’ but that it did not ‘‘answer
how a specific person acted or felt or what
that person’s motives were.’’

that the challenged statements by Clark are

not the proper subject of expert testimony.

[1] Because Teganya objected to these
portions of Clark’s testimony below, our
review of the District Court’s decision to
admit that testimony is for ‘‘a manifest
abuse of discretion.’’ See United States v.
Gordon, 954 F.3d 315, 327 (1st Cir. 2020)
(quoting United States v. Montas, 41 F.3d
775, 783 (1st Cir. 1994)). We find none.

Appendix A
7

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

Thus, at least given these admonitions
to the jury, we cannot conclude that it was
an abuse of discretion for the District
Court to admit the statements by Clark
described above over Teganya’s objections.
See United States v. Henry, 848 F.3d 1, 12
(1st Cir. 2017) (‘‘[A]ny danger posed by
the [expert] testimony was substantially
mitigated by cross-examination and the
district court’s limiting instruction.’’). Accordingly, we reject this ground for overturning Teganya’s convictions.
[5] Teganya separately argues that the
District Court erred in permitting Clark’s
testimony that, in his research, he did not
come across reports of the Rwandan government in the wake of the genocide attempting to coerce witnesses to testify
against those suspected of participating in
the genocide. Because the government’s
witnesses testified that they had not been
so pressured, Teganya contends, Clark’s
testimony on that score was not the proper
subject of expert testimony under Rules
702 and 704(b) because it improperly bolstered the testimony of witnesses for the
government at trial who stated that they
had not themselves been so coerced.
Relatedly, Teganya also challenges as
improper bolstering under Rules 702 and
704(b) the District Court’s admission of
Clark’s testimony that, when he interviewed genocide victims in Rwanda (none
of whom was a witness in this trial), many
had ‘‘fuzzy recollections of the past’’ or
‘‘reasons to not necessarily tell the truth.’’
Teganya points out that at trial he had
sought to impeach testimony from two witnesses who stated that Teganya had raped
them during the genocide by establishing
that they had not mentioned him in earlier
testimony they had given in distinct proceedings about the genocide.
[6, 7] Because Teganya failed to object
to these aspects of Clark’s testimony below, however, our review is for plain error

431

only. See United States v. Diaz, 300 F.3d
66, 76 (1st Cir. 2002). He thus ‘‘must show
‘(1) an error, (2) that is clear or obvious,
(3) which affects his substantial rights, and
which (4) seriously impugns the fairness,
integrity, or public reputation of the proceeding.’ ’’ United States v. Patrone, 985
F.3d 81, 84-85 (1st Cir. 2021) (alteration
omitted) (quoting United States v. CorreaOsorio, 784 F.3d 11, 18 (1st Cir. 2015)). He
has not done so.
In United States v. Rosales, 19 F.3d 763
(1st Cir. 1994), we rejected a claim of plain
error based on the prosecutor’s introduction of expert testimony about how minor
victims discuss incidents of sexual abuse.
Id. at 766. We concluded that the expert
testimony was not ‘‘so prejudicial TTT ‘as to
undermine the fundamental fairness of the
trial and contribute to a miscarriage of
justice,’ ’’ id. (quoting United States v.
Geer, 923 F.2d 892, 897 (1st Cir. 1991)),
because the defense presented directly
contradictory expert testimony and because the district court ‘‘expressly instructed the jurors that they were free to
reject the opinions offered by the experts,’’
id.
[8] The same is true here. Like in Rosales, Teganya presented his own expert
witness, who testified that the Rwandan
government was generally considered to
have coerced witnesses to testify against
suspected perpetrators of the genocide.
And, like in Rosales, the District Court
instructed the jurors that it was ultimately
for them to decide whether to credit the
expert testimony and whether to believe
individual witnesses. Moreover, in Rosales,
the expert testified not only that minor
witnesses who had been the victims of such
abuse generally ‘‘tend to be reluctant, they
tend to be embarrassed, uncomfortable,
ashamed of what happened,’’ and are ‘‘very
uncomfortable giving details,’’ but also

Appendix A
8

432

997 FEDERAL REPORTER, 3d SERIES

that, with respect to the particular minor
witnesses in that case, the expert ‘‘saw
that in these children.’’ Id. at 765 (emphasis added). Given that Clark made no similar comment with respect to Teganya himself or his witnesses, we cannot say in light
of Rosales that Teganya has established
plain error with respect to the admission
of the expert testimony that he argues
constitutes bolstering of the government
witnesses’ testimony.6

Rwandan genocide occurred, stating in
opening arguments that ‘‘no one is denying
that the genocide took place.’’ Thus, even if
the evidence that Teganya challenges under Rule 403 had only limited probative
value, we cannot conclude that Teganya
has met his burden to show that any error
here burdened his substantial rights as he
must do to establish plain error. See Patrone, 985 F.3d at 84-85.

[9] Teganya objects as well to Clark’s
description of the phenomenon of genocide
denial, which Clark explained at trial is
‘‘the idea that an individual or a group
would claim that a genocide that is historically known to have occurred did not occur.’’ Teganya contends that the admission
of that testimony violated Federal Rule of
Evidence 403, which provides for the exclusion of testimony if its probative value
is substantially outweighed by the risk of
unfair prejudice, as he contends that the
testimony ‘‘implied that the defense was
ignoring, or at least minimizing, a serious
and well-documented tragedy.’’ But, Teganya did not object to the testimony at
issue below, and so again our review is for
plain error only, see Diaz, 300 F.3d at 76,
and again he fails to meet his burden to
establish error of that kind.

[10, 11] Finally, Teganya argues that
even if he cannot meet his burden with
respect to any of the individual errors
addressed above, they cumulatively require reversal. It is true that ‘‘[i]ndividual
errors, insufficient in themselves to necessitate a new trial, may in the aggregate
have a more debilitating effect.’’ United
States v. Peña-Santo, 809 F.3d 686, 702
(1st Cir. 2015) (alteration in original)
(quoting United States v. Sepúlveda, 15
F.3d 1161, 1195-96 (1st Cir. 1993)). But,
we have already concluded with respect
to Teganya’s preserved claims that the
District Court did not err. And, with respect to his unpreserved claims, even if
the District Court did err, they implicate
only a handful of statements by one witness in the course of an eighteen-day trial
involving thirty-four witnesses in which
the defense had ample opportunity to
cross-examine the government’s expert
and presented an expert of its own.
Moreover, the District Court ‘‘issued ‘final
instructions to the jury [that] were strong
and clear’ on their duty to TTT properly
weigh the credibility of witnesses.’’ United
States v. Cormier, 468 F.3d 63, 74 (1st

The government noted in its closing argument that ‘‘both sides agree’’ that, although the genocide did not reach the city
in Rwanda in which Teganya lived until
after it had reached other parts of the
country, ‘‘when it did, it was fierce.’’ Teganya’s defense counsel also made clear
that Teganya was not disputing that the
6.

Although Teganya appears to bring challenges to the purported instances of commenting on witness credibility just described
under Federal Rule of Evidence 403 in addition to Rules 702 and 704(b), in his opening
brief he merely asserts that the testimony was
more prejudicial than probative. In contending that he was prejudiced by the testimony’s

admission, he develops no argument that the
testimony lacked probative value and does not
explain why the prejudice it caused to his
defense was unfair. See Fed. R. Evid. 403.
Thus, we do not consider this argument. See
United States v. Zannino, 895 F.2d 1, 17 (1st
Cir. 1990).

Appendix A
9

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

Cir. 2006) (first alteration in original)
(quoting United States v. Rodrı́guez-Estrada, 877 F.2d 153, 159 (1st Cir. 1989)).
We thus see no basis for finding cumulative error here. See id.
III.
We turn now to Teganya’s challenges to
his sentence, in which he contends that the
District Court erred in calculating his sentencing range under the U.S. Sentencing
Guidelines by applying the two-level, obstruction-of-justice enhancement. See U.S.
Sent’g Guidelines Manual § 3C1.1 (U.S.
Sent’g Comm’n 2018). He does so on a
number of grounds, none of which provides
a basis for overturning his sentence.
First, Teganya contends that the application of the obstruction-of-justice enhancement in his case impinges on his
federal constitutional right to testify on his
own behalf. But, he concedes that he failed
to raise any such argument below, and he
makes no argument that plain-error review
should not apply. He also concedes that he
cannot show plain error. We thus must
reject this contention. See United States v.
Jiménez, 946 F.3d 8, 16 (1st Cir. 2019).
[12] Teganya next contends that the
District Court’s application of the obstruction-of-justice enhancement was inconsistent with the Guidelines and that his sentence must be vacated in consequence. He
points out that where the underlying
crime is perjury, the obstruction-of-justice
enhancement may only be applied if ‘‘a
significant further obstruction occurred
during the investigation, prosecution, or
sentencing of the obstruction offense itself
(e.g., if the defendant threatened a witness
during the course of the prosecution for
the obstruction offense).’’ U.S. Sent’g
7.

The government concedes that, due to the
way in which Teganya’s convictions were
grouped for sentencing purposes, application

433

Guidelines Manual § 3C1.1 cmt. n.7 (U.S.
Sent’g Comm’n 2018).7 Teganya argues
that the District Court erroneously applied
the enhancement without finding a ‘‘significant further obstruction,’’ because he argues that it did not find that he ‘‘did
anything other than repeat the charged
falsehoods,’’ which Teganya contends cannot themselves qualify as a ‘‘significant
further obstruction’’ for the purposes of
the Guidelines in this instance.
We may assume that Teganya preserved
this challenge because even on de novo
review it fails. See United States v. TiradoNieves, 982 F.3d 1, 11 (1st Cir. 2020) (‘‘Because the claim fails regardless of the
standard applied, we assume, favorably to
[the defendant], that the claim was preserved.’’); United States v. Corbett, 870
F.3d 21, 31 (1st Cir. 2017) (‘‘We review the
district court’s interpretation of the meaning and scope of a sentencing guideline de
novo TTTT’’). As the D.C. Circuit persuasively explained in United States v.
McCoy, 316 F.3d 287 (D.C. Cir. 2003),
‘‘[l]ying under oath to protect oneself from
punishment for lying under oath seems TTT
to be precisely the sort of ‘significant further obstruction’ ’’ to which the Guidelines
refer, id. at 289, and thus we do not see
how the Guidelines may be read to exclude
such conduct from triggering the enhancement’s application.
[13] Indeed, Teganya’s only rejoinder
to McCoy is that, there, the D.C. Circuit
‘‘did not discuss the constitutional dimensions of this issue or cite authority other
than’’ United States v. Dunnigan, 507 U.S.
87, 113 S.Ct. 1111, 122 L.Ed.2d 445 (1993).
But, we do not see how that assertion
provides a reason for us to reject the
reading of the Guidelines adopted in
McCoy, given that McCoy did rely in part
of the enhancement is appropriate only if
such a ‘‘significant further obstruction’’ occurred.

Appendix A
10

434

997 FEDERAL REPORTER, 3d SERIES

on Dunnigan, see McCoy, 316 F.3d at 289,
and that in Dunnigan the Supreme Court
explained that the defendant there could
not successfully contend ‘‘that increasing
her sentence because of her perjury interferes with her [federal constitutional] right
to testify’’ for, as the Court ‘‘ha[s] held on
a number of occasions[,] TTT a defendant’s
right to testify does not include a right to
commit perjury,’’ Dunnigan, 507 U.S. at 96,
113 S.Ct. 1111. Teganya also has waived
any challenge to the application of the
obstruction-of-justice enhancement based
on a contention that it must be construed
not to be triggered by perjurious statements that repeated those for which he
has been convicted, because any other construction would violate his federal constitutional right to testify in his own defense.
Teganya also argues that ‘‘[j]ust as
pleading not guilty, going to trial, presenting a defense of truthfulness, and introducing evidence and witnesses to support that
defense’’ cannot give rise to the application
of the enhancement, neither can ‘‘making
the choice to testify consistent with that
defense.’’ We again may assume that the
challenge, which we understand to concern
the meaning of the obstruction-of-justice
enhancement itself rather than its constitutionality, is properly preserved, as it fails
even if we review it de novo. See TiradoNieves, 982 F.3d at 11; Corbett, 870 F.3d
at 31.
In so concluding, we note that the first
three examples that Teganya invokes to
support his position do not do so. The
application notes to § 3C1.1 expressly provide that none of these examples consti8.

We are also not persuaded by the Eleventh
Circuit’s unpublished opinion in United States
v. Thomas, 193 F. App’x 881 (11th Cir. 2006),
which holds that it was error for a district
court to apply the enhancement where the
defendant testified consistently with the grand
jury testimony that gave rise to her perjury
conviction. Id. at 889-91. While we agree that

tutes a ‘‘significant further obstruction,’’
see U.S. Sent’g Guidelines Manual § 3C1.1
cmt. n.2 (U.S. Sent’g Comm’n 2018) (providing that the ‘‘refusal to enter a plea of
guilty is not a basis for application’’ of the
enhancement, nor is a ‘‘defendant’s denial
of guilt (other than a denial of guilt under
oath that constitutes perjury)’’), without
similarly providing as to the kind of perjurious statements that were relied on by the
District Court in finding that he was subject to the enhancement. And Teganya
fails to offer any basis for concluding that
the fourth example he has proffered, ‘‘introducing evidence and witnesses to support [his] defense,’’ can never give rise to
the enhancement’s application in a trial for
perjury. Cf. U.S. Sent’g Guidelines Manual
§ 3C1.1 cmt. n.4(B) (U.S. Sent’g Comm’n
2018) (providing that, in the ordinary case,
the enhancement can apply to ‘‘committing, suborning, or attempting to suborn
perjury’’). We thus are not persuaded by
his contention that the text of the Guidelines does not contemplate application of
the enhancement in a case such as his.8
[14] Finally, Teganya separately challenges the adequacy of the District Court’s
findings that he committed perjury in testifying at trial. He neither argues that
there was insufficient evidence from which
the District Court could have concluded
that he committed perjury nor contends
that the District Court clearly erred in
making a particular factual finding. He
likewise does not argue that the District
Court’s findings fall short of what is ‘‘necessary to permit effective appellate review.’’ United States v. Mendez, 802 F.3d
the ‘‘base offense level for perjury TTT adequately [takes] into account the obvious obstruction of justice in perjury,’’ id. at 890, it
does not follow, in our view, that doubling
down on false statements in a later proceeding is not itself additional significant obstructive behavior.

Appendix A
11

U.S. v. TEGANYA
Cite as 997 F.3d 424 (1st Cir. 2021)

93, 99 (1st Cir. 2015) (quoting United
States v. Zehrung, 714 F.3d 628, 632 (1st
Cir. 2013)). Instead, he asserts only that,
even if the obstruction-of-justice enhancement could have theoretically been applied
to his sentence, the District Court’s ‘‘pro
forma’’ conclusions did not qualify as a
finding that any of Teganya’s statements
at trial was false.9 We can again assume
without deciding that this claim is properly
preserved and thus review it for clear error, see United States v. Garcı́a-Sierra, 994
F.3d 17, 39 (1st Cir. 2021) (considering the
defendant’s argument that the district
court failed to make sufficiently specific
findings and reviewing the determination
that a sentencing enhancement applied for
clear error); United States v. Rehal, 940
F.2d 1, 6 (1st Cir. 1991) (similar), because
the challenge still fails under that standard, see Tirado-Nieves, 982 F.3d at 11.
It is true that the District Court did not
specify which of the statements Teganya
made at trial it found were perjurious.
Instead, it stated only that it found ‘‘by a
preponderance of the evidence that the
defendant made a variety of false statements during his testimony, as outlined by
the government in its argument, and that
those statements were, taken as a whole,
material.’’ But, as we have previously noted, while it is ‘‘better practice’’ for a district court in applying the obstruction-ofjustice enhancement to ‘‘specifically identif[y] the segments of [the defendant’s]
testimony it found to be false,’’ such an
‘‘omission does not preclude affirmance of
9.

In his reply brief, in addition to his arguments about falsity, Teganya asserts that the
District Court failed to make findings as to
the other elements of perjury in that it ‘‘d[id]
not discuss willfulness or explain how lying
about these additional matters was material.’’
Even aside from the fact that this argument
was first developed in his reply brief, see
Brandt v. Wand Partners, 242 F.3d 6, 19 (1st
Cir. 2001), Teganya’s contention overlooks
the fact that the District Court concluded that

435

its finding in an instance where TTT the
record speaks eloquently for itself.’’ United
States v. Akitoye, 923 F.2d 221, 229 (1st
Cir. 1991).
The record fills in the gaps here. Among
the statements that the government highlighted to the District Court were comments where Teganya ‘‘denied being aware
of the genocide while it happened’’ and
‘‘denied having belonged to the MRND.’’
Indeed, he not only testified unequivocally
that he was never a member of the MRND
party and that he never saw atrocities
being committed at the hospital, but he
also elaborated on each point. The jury, in
reaching the verdict that it did, necessarily
concluded that his testimony in that regard was false beyond a reasonable doubt.
Moreover, although Teganya makes much
of the fact that the District Court in applying the enhancement was reluctant to
make particular findings that Teganya
committed specific atrocities, we do not see
how any skepticism the District Court expressed with respect to some of the acts
that Teganya denied undercuts the fact
that it did find other statements of Teganya’s were false. Thus, the District Court
did not clearly err when it held that Teganya ‘‘made a variety of false statements
during his testimony,’’ as this ‘‘generalized
finding of untruthfulness’’ by the District
Court was ‘‘sufficiently supported by the
record.’’ Rehal, 940 F.2d at 6. We thus see
no basis for disturbing that finding and
affirm Teganya’s sentence as well.
he made false statements ‘‘as outlined by the
government in its argument,’’ and that, in its
sentencing memorandum, the government
contended that the statements in question
were also both willful and material. And,
while Teganya asserts that there are reasons
to doubt whether the District Court adopted
the government’s position as a whole in connection with falsity, he makes no such claim
as to willfulness or materiality.

Appendix A
12

436

997 FEDERAL REPORTER, 3d SERIES

IV.
For all these reasons, we affirm Teganya’s convictions and sentence.

right, the violation of which produced
a concrete, intangible harm sufficient
to confer standing.
Affirmed and remanded.

,

Jacobs, Circuit Judge, filed dissenting
opinion.
1. Federal Courts O3587(2)

Sandra MADDOX, Tometta Maddox
Holley, on behalf of themselves and
all others similarly situated, Plaintiffs-Appellees,
v.
The BANK OF NEW YORK MELLON
TRUST COMPANY, N.A.,
Defendant-Appellant.
Docket No. 19-1774
August Term, 2019
United States Court of Appeals,
Second Circuit.
Argued: March 26, 2020
Decided: May 10, 2021
Background: Mortgagors brought action
against mortgagee, alleging that mortgagee’s failure to timely record mortgagors’
satisfaction of mortgage after discharge of
mortgage loan violated state law. The
United States District Court for the Western District of New York, Richard J. Arcara, Senior District Judge, 2018 WL
3544943, denied mortgagee’s motion for
judgment on the pleadings. Mortgagors
filed interlocutory appeal, which was certified.
Holdings: The Court of Appeals, Pooler,
and Carney, Circuit Judges, held that:
(1) New York mortgage-satisfaction-recording statutes created legally-protected interests, and
(2) New York mortgage-satisfaction-recording statutes created substantive

The Court of Appeals reviews a district court’s decision regarding a motion
for judgment on the pleadings de novo.
2. Federal Civil Procedure O103.2, 103.3
Article III standing requires plaintiffs
to show injury in fact, causal connection
between that injury and conduct at issue,
and likelihood that injury will be redressed
by favorable decision. U.S. Const. art. 3,
§ 2, cl. 1.
3. Federal Civil Procedure O103.2
To demonstrate injury in fact for Article III standing, a plaintiff must show
invasion of legally protected interest that
is concrete and particularized and actual or
imminent, not conjectural or hypothetical.
U.S. Const. art. 3, § 2, cl. 1.
4. Federal Civil Procedure O103.2
The New York State Legislature has
the power to create legal interests which,
if violated, can satisfy the injury-in-fact
requirement of Article III standing. U.S.
Const. art. 3, § 2, cl. 1.
5. Federal Civil Procedure O103.2
A state legislature, like Congress, may
recognize a legal right by enacting a statute, the violation of which can satisfy the
injury-in-fact requirement for Article III
standing. U.S. Const. art. 3, § 2, cl. 1.
6. Federal Civil Procedure O103.2
The injury-in-fact requirements of
concreteness and particularity for Article
III standing can be satisfied in cases aris-

Appendix A
13

Case 1:17-cr-10292-FDS Document 164 Filed 07/02/19 Page 1 of 4
AO 245B (Rev. 11/16)

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
'LVWULFWRI0DVVDFKXVHWWV
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
-($1 /(21$5' 7(*$1<$

THE DEFENDANT:

JUDGMENT IN A CRIMINAL CASE
Case Number:   &5 

   )'6

USM Number: 
6FRWW /DXHU
Defendant’s Attorney

G pleaded guilty to count(s)
G pleaded nolo contendere to count(s)
which was accepted by the court.

G
✔ was found guilty on count(s)

    DQG 

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
 86&  
 86&  
 86&  
 86&  
 86&  

Nature of Offense
Offense Ended
Count

)UDXGDQG 0LVXVH RI 9LVDV 3HUPLWV DQG 2WKHU 'RFXPHQWV


3HUMXU\


)UDXGDQG 0LVXVH RI 9LVDV 3HUPLWV DQG 2WKHU 'RFXPHQWV


3HUMXU\



3HUMXU\

The defendant is sentenced as provided in pages 2 through
of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

D

D



G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.


Date of Imposition of Judgment

V ) 'HQQLV 6D\ORU ,9
Signature of Judge

7KH +RQRUDEOH ) 'HQQLV 6D\ORU ,9
-XGJH 86 'LVWULFW &RXUW
Name and Title of Judge


Date

Appendix B
1

Case 1:17-cr-10292-FDS Document 164 Filed 07/02/19 Page 2 of 4
AO 245B (Rev. 11/16) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page



of



DEFENDANT: -($1 /(21$5' 7(*$1<$
CASE NUMBER:

  &5 

   )'6

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total

 PRQWK V

term of:

7KLV WHUP FRQVLVWV RI WHUPV RI  PRQWKV RQ FRXQWV  DQG  DQG  PRQWKV RQ FRXQWV   DQG  WR EH VHUYHG FRQFXUUHQWO\

✔ The court makes the following recommendations to the Bureau of Prisons:
G

7KH GHIHQGDQW VKDOO EH LQFDUFHUDWHG DW )&, %HUOLQ LI FRQVLVWHQW ZLWK VHFXULW\ DQG RWKHU UHTXLUHPHQWV

✔
The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Appendix B
2

AO 245B (Rev. 11/16)

Case 1:17-cr-10292-FDS Document 164 Filed 07/02/19 Page 3 of 4

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

Judgment — Page

DEFENDANT: -($1 /(21$5' 7(*$1<$
CASE NUMBER:

  &5 



of



   )'6

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

$ 

JVTA Assessment*

$ 

Fine

Restitution

$ 

G The determination of restitution is deferred until

$ 

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Restitution Ordered

Total Loss**

Name of Payee



$

TOTALS

$

Priority or Percentage



G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine
G

G restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

Appendix B
3

AO 245B (Rev. 11/16)

Case 1:17-cr-10292-FDS Document 164 Filed 07/02/19 Page 4 of 4

Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

Judgment — Page



of



DEFENDANT: -($1 /(21$5' 7(*$1<$
  &5     )'6
CASE NUMBER:

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $
G

G
G

not later than
in accordance with



G

C,

due immediately, balance due

G

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Appendix B
4

1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

1
2
3
4

UNITED STATES OF AMERICA,

5

vs.

6

JEAN LEONARD TEGANYA,
Defendant

7
8

)
)
) Criminal Action
)
) No. 17-10292-FDS
)
)
)
)

9
10
11
12

BEFORE:

THE HONORABLE F. DENNIS SAYLOR, IV
SENTENCING HEARING

13
14
15
16
17
18

John Joseph Moakley United States Courthouse
Courtroom No. 2
One Courthouse Way
Boston, MA 02210
July 1, 2019
8:30 a.m.

19
20
21
22
23
24
25

Kathleen Mullen Silva
Official Court Reporter
John Joseph Moakley United States Courthouse
1 Courthouse Way, Room 7902
Boston, MA 02210
E-mail: kathysilva@verizon.net

Appendix C
1

2

1

APPEARANCES:

2

For The United States:

3

United States Attorney's Office, by GEORGE P. VARGHESE,
ASSISTANT UNITED STATES ATTORNEY, and SCOTT GARLAND, ASSISTANT
UNITED STATES ATTORNEY, 1 Courthouse Way, Suite 9200, Boston,
Massachusetts 02110;

4
5
6
7
8

For the Defendant:
Federal Public Defender Office, by SCOTT LAUER, ESQ.,
and TIMOTHY G. WATKINS, ESQ., 51 Sleeper Street, 5th Floor,
Boston, Massachusetts 02210.

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Appendix C
2

3

P R O C E E D I N G S

1
THE CLERK:

2
3

All rise.

(Court entered.)
THE CLERK:

4

Court is now in session in the matter of

5

United States v. Jean Leonard Teganya, criminal matter number

6

17-10292.
Would counsel please identify themselves for the

7
8

record.
MR. VARGHESE:

9
10

MR. GARLAND:

Good afternoon, your Honor.

Scott

Garland on behalf of the United States.

13

THE COURT:

Good afternoon.

14

MR. LAUER:

Good afternoon, your Honor.

15

George

Varghese from the United States.

11
12

Good afternoon, your Honor.

Scott Lauer

on behalf of Mr. Teganya.
THE COURT:

16

Good afternoon.

All right.

This is the

17

sentencing of Jean Leonard Teganya.

18

presentence report as revised through June 24, the defendant's

19

sentencing memorandum with letters of support attached, the

20

government's sentencing memorandum.

And I think that was it.

Is there anything else I should have seen that I have

21
22

I've received and read the

not?

23

MR. GARLAND:

No, your Honor.

24

MR. LAUER:

No, your Honor.

25

THE COURT:

Okay.

Mr. Lauer, I know you've had a

Appendix C
3

4

1

chance to review the presentence report.

2

with Mr. Teganya?

Have you gone over it

3

MR. LAUER:

I have.

4

THE COURT:

Is that correct, Mr. Teganya?

5

THE DEFENDANT:

6

THE COURT:

7

participate in this process?

Yes.

Are there any victims present who wish to

8

MR. GARLAND:

9

THE COURT:

No, there are not.

All right.

Let me take up the objections

10

to the presentence report.

As I see it, there are basically

11

two.

12

obstruction of justice enhancement under Section 3C1.1 should

13

apply, and the government has said whether there should be an

14

upward departure based on the inadequacy of criminal history

15

under 4A1.3.

One is not really an objection, but whether the

As to the upward departure issue, I think that

16
17

probably is best folded into the arguments generally on both

18

sides.

19

But let's take up the obstruction of justice question.

20

hear from the government first.

21

Mr. Varghese.

22

MR. VARGHESE:

23

I don't know that it's actually a guideline objection.

Thank you, your Honor.

I'm sorry.

You'd like to hear about the obstruction of justice?

24

THE COURT:

25

MR. VARGHESE:

Obstruction of justice first, yes.
That's fine, your Honor.

Appendix C
4

Let me

5

1

From presiding at this trial, the court has heard the

2

evidence in this case, and there was a lot of it.

Typically,

3

your Honor, there was -- I think there was a total of 34

4

witnesses, 14 government witnesses and 20 defense witnesses who

5

testified in this case.

6

Now, with respect to obstruction of justice, the First

7

Circuit tells us that it's not simply for conflicting evidence,

8

but where that evidence is directly contradictory of each other

9

or a wholesale denial of involvement in criminal conduct, or as

10

the First Circuit stated where it constitutes a web of lies,

11

the obstruction of justice enhancement is applicable and should

12

be applied.

13

Now, with respect to obstruction of justice, your

14

Honor, the statements at issue that the government is relying

15

on were directly contradictory, the government's witnesses and

16

then the defendant in his statements.

17

other defense witnesses, the defendant's statements themselves

18

were directly contradictory to the government's witnesses.

19

Putting aside the 19

The jury's verdict, a unanimous verdict on all five

20

counts, directly shows, your Honor, that the jury credited the

21

government's witnesses as opposed to Mr. Teganya.

22

Let me just touch briefly on a couple of those

23

statements.

Counts One and Two relate to Mr. Teganya's

24

involvement with the political party MRND.

25

defendant gave when he was on that stand under oath was that he

Appendix C
5

The testimony the

6

1

was not a member of that political party, that it was his

2

father's party, and that he was too busy studying during his

3

time in medical school to participate in MRND activities.

4

Those statements were directly contradicted by the testimony of

5

government witnesses, Dr. Bernard Kalimba, Dr. Anicet

6

Nzabonimpa, Jerome Arusha and Innocent Habimana.

7

those witnesses testified that they saw him wearing clothing of

8

MRND, the hat and the scarf.

9

he attended political meetings and rallies, that he had a flag

All four of

They saw him wearing pins, that

10

in his room, and that he trained with the Interahamwe in the

11

gym and in the fields.

12

statements the defendant made on the stand under oath.

Again, directly contradictory to the

Counts Three and Four relate to Mr. Teganya's denial

13
14

of ever causing harm to anyone because of their race or social

15

group.

16

atrocities at the hospital.

17

stand under oath and stated that he was at that hospital for a

18

full 100 days during the heart of the genocide -- during the

19

entire genocide, but the entire time he was there treating

20

patients, that he never participated in acts of genocide, in

21

fact, he didn't even see acts of genocide.

22

testimony was directly contradicted by several of the

23

government's witnesses, including Jean Pierre Gasasira.

24

the 17-year-old Tutsi boy who saw the defendant hunt down and

25

murder three Tutsis at that hospital, Dr. Karekezi, Mathias

Similarly, Count Five was his denial of ever seeing
Once again, the defendant took the

Appendix C
6

Once again, that

He was

7

1

Gasarabwe and Protais Nyangezi.

All three of those murders,

2

Mr. Gasasira testified that the defendant not only participated

3

in but actually was involved in killing them.
There was the testimony of Consolee Mukeshimana.

4

She

5

was the Tutsi woman who was hiding in the dermatology ward.

6

She testified that she saw the defendant come and take her

7

cousin Veneranda to be raped on three separate occasions.

8

last time she stated that Veneranda said that she was going to

9

ask Mr. Teganya to kill her because she couldn't endure it any

The

10

longer, and, in fact, Mr. Teganya did that.

And then she

11

herself testified that she was taken by Mr. Teganya, was beaten

12

by Mr. Teganya, was raped by Mr. Teganya on two separate

13

occasions, all the while that she was six months pregnant.
There was also the testimony of Esperance Mukamurenzi.

14
15

She was the older Tutsi woman who was hiding in the maternity

16

ward.

17

with the gap in his teeth and wearing the white lab coat, which

18

is exactly the same way Mr. Gasasira described him.

19

testified that she called Mr. Teganya and his militia Teganya's

20

Army, and that's how they were referred to by the patients who

21

were hiding there.

22

took Tutsi patients, including her aunt Venancia, to be killed

23

in the field by the maternity ward steps from the Kiza

24

dormitory where Mr. Teganya was living at the time.

25

Mukamurenzi also testified that she too had been taken by

She identified Mr. Teganya by describing him as the man

She

She testified that Teganya's Army came and

Appendix C
7

Esperance

8

1

members of Teganya's Army and raped on the hospital grounds.
Lastly, there was Innocent Habimana.

2

He testified

3

about the defendant, his participation in the Interahamwe, the

4

training sessions that took place, both at the gym and in the

5

fields.

6

a member of the Interahamwe, but actually a leader of the

7

Interahamwe, about how he wore the clothing, the scarf and the

8

hat, and about how during the genocide Mr. Teganya flagged down

9

Mr. Habyarimana and his group and tried to turn over four

He testified that Mr. Teganya was a member -- not only

10

Tutsis who had been hiding in the Kiza dormitory to be killed.

11

Mr. Habyarimana testified to the jury that he told Mr. Teganya

12

you have to do the work too, and so they broke them up.

13

group took two separate Tutsis.

14

dormitory.

15

Mr. Teganya and his group killed the other two.

16

Each

They went behind the Kiza

Mr. Habimana and his group killed two Tutsis.

For all of the events that I just described

17

Mr. Teganya was asked about all of these events while he was on

18

the stand under oath, and for all of those events he denied his

19

participation in any of it.

20

constitute the web of lies that the First Circuit has stated

21

justify an obstruction of justice enhancement.

22

applied not only to the visa fraud counts or, sorry, Counts One

23

through Four but also to the perjury count in Count Five.

24

Under the guidelines, as the court knows, the perjury offense

25

level is 2J1.3.

It's a 14.

Your Honor, we believe that those

It's a level 14.

Appendix C
8

It should be

There's an

9

1

additional three-level enhancement if it interferes with the

2

administration of justice.

3

obstruction of justice enhancement on top of that.

4

applies if the defendant lied at the trial about the perjury

5

charge.

6

So 2J1.3(b)(2).

There's an
3C1.1

So that's the additional two-level enhancement.
So we believe that the first four groups -- the first

7

four counts that are grouped together are a level 27.

8

stands alone at a level 19.

9

together, you end up with a total offense level of 28.

Count 5

When those are all grouped

10

THE COURT:

Okay.

Mr. Lauer.

11

MR. LAUER:

Your Honor, I'd be hard-pressed to say

12

that there wasn't contradiction between the account offered by

13

Mr. Teganya and the account offered by the government

14

witnesses.

15

presented and the jury has spoken.

16

That goes for many witnesses that the defense

But the obstruction of justice enhancement, the First

17

Circuit has been clear, requires more than simply contradictory

18

testimony that is not endorsed by the fact finder.

19

require you to make specific findings as to the nature of the

20

perjury, the materiality, et cetera.

21

his defense.

22

testified in a manner consistently with him.

23

not prepared to admit that that was perjurious or that that

24

constituted obstruction of justice.

25

render its verdict, and we are here today because of that.

It would

Mr. Teganya testified in

A number of other witnesses who knew him

Appendix C
9

He certainly is

However, the jury did
But

10

1

simply because the jury rejected Mr. Teganya's testimony does

2

not automatically allow for a finding of obstruction.

3

THE COURT:

All right.

As to this issue, that is,

4

whether the obstruction of justice enhancement under Section

5

3C1.1 should apply, I find that it does apply, and I will apply

6

the two-level enhancement.

7

As counsel correctly points out, this doesn't apply

8

for a mere denial of guilt or merely for exercise of one's

9

right to testify or for merely contradictory statements.

10

Something more is required, but I find by a preponderance of

11

the evidence that the defendant made a variety of false

12

statements during his testimony, as outlined by the government

13

in its argument, and that those statements were, taken as a

14

whole, material, and that, therefore, the enhancement applies.

15

I think we wind up at the same place, but I don't

16

think that the enhancement should apply twice for grouping

17

principles.

18

top of arguably double counting of the perjury offense followed

19

by the enhancement of three levels on the perjury offense, but

20

I think the two levels should be added at the end.

21

that takes us to a level 28 regardless, but I think that's the

22

fair way to calculate it.

23

That seems to me to be perhaps double counting on

I think

And, again, the objections as to upper departure I

24

think should be folded into the argument as to the appropriate

25

sentence, whether I should either upwardly depart or impose a

Appendix C
10

11

1

variance sentence.
I think the other objections were resolved, or were

2
3

offered to the court for information purposes.

4

anything else I need to take up as a guideline matter in terms

5

of objections?

6

MR. VARGHESE:

7

THE COURT:

Mr. Lauer?

8

MR. LAUER:

No, your Honor.

9

THE COURT:

All right.

Is there

Not for the government, your Honor.

Let me turn then to the

10

guideline calculation.

There are two groups under 2L2.2 which

11

applies to immigration offenses.

12

There's an increase all the way up to 25 if the defendant

13

committed the offense to conceal his participation in a serious

14

human rights offense, which I think appropriately applies.

The base offense level is 8.

The second grouping is perjury under 2J1.3.

15

The base

16

offense level is 14.

17

it resulted in a substantial interference with the

18

administration of justice.

19

grouping principles, we add one level to 25 to take us to 26,

20

followed by two levels for obstruction of justice, and that

21

takes us to a level 28, which is the final adjusted offense

22

level.

23

There's a three-level enhancement because

That adds up to 17.

His criminal history score is zero.

Applying

His criminal

24

history category is Roman Numeral I.

25

range of 78 to 97 months, a supervised release range of one to

Appendix C
11

That produces a guideline

12

1

three years.

2

offense was committed before 2014, of $12,500 to $125,000.

3

Restitution is not applicable.

4

assessment of $100 on each count for a total of $500.

5
6

The fine range I think is lower, because the

Is there any further objection to that, other than
what's already been raised?

7

Mr. Varghese.

8

MR. VARGHESE:

9

THE COURT:

Mr. Lauer?

10

MR. LAUER:

No.

11

And there's a special

No, your Honor.

Aside from the obstruction of

justice, no.

12

THE COURT:

13

With that as our starting point, let me hear from the

14

All right.

government.

15

THE COURT:

Mr. Garland.

16

MR. GARLAND:

17

The government's argument for 20 years of imprisonment

Thank you, your Honor.

18

begins and is underpinned largely by the enormity of the

19

genocide, the enormity of Mr. Teganya's part in the genocide

20

and the enormity of his lies about what he did then and its

21

effect upon the asylum system.

22

The enormity I think is hard to grasp, and I say that

23

because one of the things that we were thinking about in trying

24

to decide how to present this to the court and to the jury was

25

who should the first witness be.

Appendix C
12

And there was enormous

13

1

thought given to whether it should be, say, Mr. Gasasira, and

2

who could identify what it was that Mr. Teganya had done at the

3

Butare Hospital.

4

was about to relate to the court and to the jury was so far out

5

of the understanding of us that something that big as the

6

Rwandan genocide, something that enormous happened during our

7

lifetime, we were worried that people would not be able to

8

apprehend the horror of what happened then, the worst genocide

9

since the Holocaust.

10

And ultimately the thought was that what he

And that's why we started out with an expert, an

11

expert who could basically talk about the historical record,

12

and what other people had seen and done not only throughout

13

Rwanda but in Butare and around the hospital itself, to base

14

that so that other people could understand the testimony -- the

15

eyewitness testimony that they were going to hear, and to judge

16

what Mr. Teganya had said in the immigration proceedings.

17

that through that they would understand that this was real and

18

that it was horrible.

19

And

And they would also learn what type of people

20

participated in the genocide, that it wasn't just soldiers; it

21

wasn't just party partisans; but it was also people like

22

neighbors and relatives and teachers and priests and

23

seminarians.

24

imagine doing these sort of things, people who were smart,

25

educated, sometimes religious, sometimes leaders, all people

It could be done by people that you could not

Appendix C
13

14

1

who had attributes that Mr. Teganya portrayed himself as

2

having, and that other witnesses identified him as having as

3

well.
And I emphasize this not because the court didn't sit

4
5

through this and understand all of it, but as we talk about the

6

technical aspects of sentencing at a remove of three months

7

from when this testimony was given, it can be difficult to keep

8

the enormity of what went on and his part in it in the mind's

9

eye.

10

And this informs, I believe, as well the understanding

11

of what Mr. Teganya's lies -- what effect they had, those lies,

12

on the asylum system itself.

And those are the crimes for

13

which he is to be sentenced.

For that -- imagine that it's May

14

of 1994.

15

that there are a stream of refugees coming from Rwanda lining

16

up to ask for asylum before the immigration courts.

17

hope that that asylum system whose very goal is to give refuge

18

to the persecuted and to reject the persecutors, one would hope

19

that it would accurately identify the Tutsi refugees and the

20

moderate Hutu refugees who were truly fleeing the horror that

21

was going on in the genocide, that they would come here, we

22

would identify them, and that we would open our arms to them

23

and give them asylum.

24
25

The genocide is raging on as we speak, and imagine

One would

And one would hope equally that the asylum system
would do exactly the same with the perpetrators of that

Appendix C
14

15

1

genocide, that it would identify them quickly and accurately

2

and because of the persecutor bar and just the fundamental

3

notions of decency that the asylum procedures and the laws

4

under exhibit, that we would catch them quickly and refuse them

5

so that they could face justice elsewhere in their home

6

country.
And in that regard, putting oneself back in May of

7
8

1994, playing that out as the refugees are coming in live

9

essentially, while the genocide goes on, I think it's much,

10

much easier to understand how the lies that Mr. Teganya told,

11

his dressing himself up in the garb of the persecuted rather

12

than the persecutor, how awful they were.

13

the heartland lies that might be told in immigration court for

14

which we still prosecute people, lies about former marriages,

15

lies about current marriages, lies about who they're related

16

to, presenting false identity documents, but these were instead

17

lies about the most consequential catastrophe that Rwanda has

18

faced.

19

persecutor deserves some sort of refuge here, that he somehow

20

deserves to have some sort of freedom from prosecution

21

elsewhere, and at the same time it also casts suspicion on all

22

those other Rwandan refugees who are standing right in front of

23

you, because as the court heard, the whole system starts with

24

the candor of the applicants, and from there the inquiry goes

25

on, but it starts with the candor of the applicants.

They weren't just

And doing that perverts the system.

Appendix C
15

It says the

16

So thinking about that, the court can understand what

1
2

it was that Mr. Teganya was doing in Canada when he was spewing

3

similar lies to the Canadian authorities, as well what he was

4

trying to gain here.

5

you try it, see whether it works, and if it doesn't, you go

6

out.

7

granted a first step on the path to citizenship here.

If Mr. Teganya had been successful, he would have been

So why the upward departure to the statutory maximum?

8
9

Because, remember, it wasn't just, well,

I'm going to structure this in two ways.

One is why the upward

10

departure to the statutory maximum on each of the counts, and

11

then why the 20-year sentence that the government has

12

recommended.
Court after court that has seen similar facts, whether

13
14

from Rwanda or Liberia or Ethiopia, have recognized that the

15

enormity of the genocide, the enormity of the types of acts

16

that Mr. Teganya has done is directly related to the enormity

17

of the lies, and that these are the most significant, most

18

corrosive, most morally culpable lies possible.

19

the most serious penalty, and that is the maximum on each

20

count.

They deserve

And each court that has considered this have asked if

21
22

this is not the crime that deserves the maximum penalty, then

23

what is?

24
25

And, your Honor, that is true here.
And it's in this light that the government suggests,

specifically with regard to 2L2.2 and the upward enhancement or

Appendix C
16

17

1

adjustment for genocide, that it's inadequate.

It's inadequate

2

in light of the fact that it's just a regular offense level of

3

25 that it brings you only to, for criminal history category I,

4

57 to 71 months, which is far below the statutory maximum for

5

what are normally ten-year crimes.

6

the defendants prosecuted, and that includes Mr. Teganya,

7

people who are leaders who direct other people to engage in

8

acts of genocide or rape, people who commit multiple genocidal

9

acts, as did Mr. Teganya, people whose participation in those

It's inadequate in light of

10

crimes are grotesque, as they were here with Mr. Teganya being

11

a medical student and having the duty of care, with Mr. Teganya

12

raping a woman who was pregnant six months at the time.

13

well it's inadequate given the types of lies that were told as

14

you think about the defendant and his own characteristics.

15

I'll address the 4A1.3 argument at this point.

As

You'll

16

recall, your Honor, that the criminal history category here, as

17

you said, was zero points, criminal history category I.

18

said in our papers, that does not take into count the multiple

19

murders and rape, incitement to murder and rape that

20

Mr. Teganya was responsible for.

21

the fact that even afterwards, throughout as many as 15

22

years -- 20 years, he has taken repeated step after repeated

23

step to renew that story in what were lies.

24
25

As we

It doesn't take into account

It starts out with the false Zimbabwean passport that
allows him to get into Canada.

Appendix C
17

It continues with the many,

18

1

many statements that he made to Canada.

2

Canada deciding that he must be removed and Mr. Teganya

3

becoming a fugitive for two years.

4

coming into the United States, clearly not intending to assert

5

an asylum claim but skirting the border and walking away from

6

that border station so that he would not be arrested.

7

only because of that arrest that he came forward and he

8

continued with these lies.

9

lies that he told you and the jury inside of the trial.

10

It continues with

It continues with him

It's

And it continues again with the

And it's important as well because of the lies that he

11

told what effect they actually had.

12

was denying the very reality that the government's expert, that

13

the defendant's expert, that the government's witnesses and

14

some of the defendant's witnesses as well showed to this court.

15

It denied the enormity and the reality of what happened there.

16

That the genocide was open, that it was pervasive, that it was

17

staggering in effect.

18

those witnesses who sat on that stand and testified to the

19

court and to the jury about the unbearable suffering that they

20

saw, that they endured, that they saw others endure, and that

21

they saw others endure at Mr. Teganya's hands.

22

Part of what he was doing

It denied as well the basic humanity of

As you recall, Mr. Teganya didn't get up there and

23

basically say, you know, what happened during the Rwandan

24

genocide was a terrible thing.

25

And I feel so bad for these people who came up here and said

Appendix C
18

There was a lot going on there.

19

1

that this happened to them, but you have to understand it

2

wasn't me.

3

victims as were liars.

4

that they were not here to hear him say that when he was on the

5

stand.

What he basically said and what he painted those
And if there's one small mercy it's

6

This is the exact opposite of Gacaca.

As the court

7

will recall, the whole Gacaca process back in Rwanda was

8

intended to essentially move past this episode.

9

with people who have participated in such large crimes and so

What do you do

10

many of them?

What was the Gacaca process supposed to do?

It

11

was supposed to deal with it and move on and reconcile.

12

only prolonged and denied the agony that actually had happened.

13

And it showed, I think, Mr. Teganya's contempt for the whole

14

process, asylum, immigration as well.

This

15

The 3553(a) factors also support, as numerous courts

16

have talked about, going to the statutory max for each count,

17

promoting respect for the law, banning persecutors, recognizing

18

the seriousness of Mr. Teganya's lies which I've just

19

addressed, giving just punishment for these as well, and

20

letting, most importantly, other persecutors know that the

21

United States is no safe haven for people who are persecutors

22

or those who lie about being persecuted, and that they must

23

face justice elsewhere.

24
25

So once it's understood why each count must have the
statutory maximum penalty associated with it, whether it's five

Appendix C
19

20

1

years or ten years, the next question is how to determine how

2

those should run, consecutively or concurrently, to arrive at

3

the sentence that the government has suggested.

4

we look to other sentences.

5

sentence for Jabbateh, who is known as Jungle Jabbah.

6

not contending that Mr. Teganya is Jungle Jabbah.

7

Jabbah got 30 years for being essentially the commander of a

8

battalion of some sort doing this for years upon end

9

essentially commanding a province and commanding other people

And for that

Clearly at the outer limits is the
We are

Jungle

10

to do things that were unspeakable, including cannibalism, but

11

it gives us an outer limit to be wary of.

12

this case the statutory maximum, if you were to run everything

13

consecutively, would have been 35 years.

14

to be an appropriate punishment for Mr. Teganya given what he

15

had done in comparison to Jungle Jabbah.

We noted that in

That did not appear

At the other end of the spectrum is Mr. Ngombwa, which

16
17

was an interesting case, because Mr. Ngombwa was a part of the

18

genocide.

19

tried for, were only about who he was related to.

20

was related to a former prime minister who left the country,

21

whether he was related to other people as well.

22

facts about his participation in genocide became relevant only

23

at sentencing.

Now, there his lies were only about, what he was
Whether he

And there the

24

Now, there as well Mr. Ngombwa actually did testify at

25

his own trial but the lies that he said were not lies about his

Appendix C
20

21

1

participation or his lack of participation in genocide.

2

only lies about his relations with other people, who his

3

relatives were, and there Mr. Ngombwa got 15 years.

4

government suggests to the court that Mr. Teganya's lies, the

5

very things that he was convicted upon, were far, far worse

6

than about who he was related to.

7

already identified, denials about participation in genocide.

The

There were, as the court has

There are other cases as well that the court can

8
9

It was

consider.

One is U.S. v. Worku.

That was the case where the

10

Ethiopian prison guard had been torturing people, lied about

11

that, and also used a false identity.

12

Mr. Teganya should be sentenced above Mr. Ngombwa, below Jungle

13

Jabbah, right around where Mr. Worku was as well.

14

how we get to the 20 years.

He got 22 years.

And that is

Now, in Mr. Teganya's sentencing brief one of the

15
16

things he suggests to the court is that a 63-month sentence is

17

fine because after that surely he'll be deported to or removed

18

to Rwanda and he'll face justice there, but it's important to

19

note that that's unknown.

20

will do something such as fight removal.

21

what decisions will be made by the immigration courts, how long

22

that process will take.

23

was convicted years ago, her appeal was done I think in 2015,

24

she still sits in the United States, hasn't been removed

25

anywhere.

It's unknown whether Mr. Teganya
If he fights removal,

Prudence Kantengwa, for example, who

Appendix C
21

22

1

Moreover it's the height of the irony, and I think as

2

well continued contempt, that Mr. Teganya, who has spent his

3

entire life running from Rwandan justice, to plead that now he

4

should be able to go back to Rwanda and be sentenced there so

5

he can have a shorter sentence here.

6

That can't be right.

It's now time for him to face justice for what he did

7

in the United States, making those most consequential, most

8

serious lies that the asylum system can understand to have, and

9

it's time for the court to sentence him to 20 years in prison,

10

three years of supervised release, a fine if he's able to do

11

it, but since he is in forma pauperis I understand that there

12

would probably be no fine, and a $500 mandatory special

13

assessment.

14

THE COURT:

15

Mr. Lauer.

16

MR. LAUER:

Okay.

Thank you.

Your Honor, there's a couple principles

17

that are important to keep in mind here.

The first principle

18

is that the punishment should fit the offense.

19

here is lying.

20

lying before an immigration court.

21

violence that the government has described in great detail and

22

that you yourself heard from the witnesses.

23

this case relates to the genocide.

24

of the trial had to do with his conduct during the genocide,

25

but what he is charged with and the offenses that you must

The offense

It's lying in an asylum application.

Appendix C
22

It's

It is not the acts of

It is true that

It is true that the subject

23

1

sentence him for are not offenses that -- are not murders, are

2

not rapes, are not incitement to commit genocide.

3

sentence him for the charged offenses, which are immigration

4

fraud and perjury.

5

You must

So that's one principle to keep in mind.

The second principle to keep in mind is that the

6

Sentencing Guidelines exist for a reason, and that's a strange

7

thing for me to be saying because I'm often in a position of

8

explaining that the Sentencing Guidelines are inadequate for

9

one reason or another.

But the fact of the matter is is that

10

the Sentencing Guidelines, while not mandatory, are a useful

11

reference point for the court in determining what an adequate

12

punishment is.

13

This is not a case -- this is not a situation, a

14

factual situation that is completely without precedent.

In

15

fact, 2L2.2 specifically contemplates the very situation that

16

is before you today:

17

their participation in serious human rights offenses.

18

the reason we are dealing with a base offense level of 25 as

19

opposed to a base offense level of 8.

20

where the commission has failed to foresee someone like

21

Mr. Teganya.

22

(b)(4)(A) was added relatively recently, and it was added to

23

ensure, essentially, that courts were mindful of the serious

24

consequences of lying about genocide, lying about serious human

25

rights abuses.

Someone who has lied in reference to
That is

This is not a situation

In fact, that provision, 2L2.2(a) -- excuse me --

This is not a situation that was

Appendix C
23

24

1

uncontemplated.

Instead the provision is there, it applies,

2

and it produces a certain sentencing range.

3

mandatory, but the court should be wary of departing from it

4

certainly to the extreme of the statutory maximum without good

5

cause.

6

districts about defendants you know nothing about.

7

it's more useful to proceed with reference to the guidelines

8

than it is by anecdote.

Granted, it is not

The government has cited a number of cases in other

This defendant was convicted of lying.

9

I think

That is the

10

gravamen of the offense, and that is what the punishment should

11

fit.

12

committed murder, the government believes that he committed

13

rape, that was not the charges that he faced here.

14

not the verdicts returned by this jury.

To the extent that the government believes that he

That was

What will happen, undoubtedly, is the government will

15
16

seek to remove him to Rwanda.

17

that Rwandian authorities intend to prosecute him.

18

certainly no reason to think that he would not be removed to

19

Rwanda, he would not be jailed in Rwanda, and really that is

20

the court of competent jurisdiction for the charges of murder

21

and rape during the genocide.

22

court to transform itself into a tribunal to punish that

23

conduct.

24
25

You heard evidence at the trial
There is

It is not the place of this

We would ask the court, in consideration of the
evidence that you heard, in consideration of the guidelines, in

Appendix C
24

25

1

consideration about -- of what you know about Mr. Teganya and

2

how he's conducted himself over the past 25 years, to impose a

3

guideline sentence.

4

outside of Rwanda.

5

takes the position that he has a criminal history that is

6

understated and that it does not adequately calculate the risk

7

of future offense that he presents.

8

of his life suggest otherwise.

9

life, an unassuming life, working, going to school, raising a

10

family.

11

from the genocide.

12

Twenty-five years this man has been
The government in their sentencing brief

I think the past 25 years

This is a man who lived a quiet

Really the only problems that he has had have flowed
There's nothing else to speak of.

So with all that in mind, your Honor, we would ask you

13

to consider a guideline sentence because this is a case where

14

the guidelines specifically contemplate the conduct that you

15

have heard, and there is not adequate reason to depart.

16

THE COURT:

Okay.

Thank you.

17

Mr. Garland, any response?

18

MR. GARLAND:

No, your Honor.

I think that our

19

argument in our brief says it all, other than to reaffirm what

20

we said before, that if we were asking the court to sentence

21

Mr. Teganya for what he did during the genocide, we'd be asking

22

for life in prison, and we're not.

23
24
25

THE COURT:

All right.

Mr. Teganya, do you wish to

address the court?
MR. LAUER:

He would decline, your Honor.

Appendix C
25

26

1

THE COURT:

Okay.

2

THE COURT:

All right.

I find this sentencing to be

3

unusually challenging, really for the -- as is perhaps obvious

4

from the arguments of counsel.

5

immigration offenses and perjury.

6

participated in multiple murders and rapes, and that was the

7

subject of the immigration fraud and the perjury.

8

charged in this court with murder or rape and could not be so

9

charged.

The jury convicted him of
There was testimony that he

He was not

Obviously the jury did not specifically find that he

10

committed or participated in any particular murder or

11

particular rape.

12

have been asked to.

13

They were not asked to and could not legally

There is, I think, substantial ambiguity in the

14

verdict as to what he actually did for that reason, but the

15

basic question is do I sentence him as a liar or do I sentence

16

him as a murderer or rapist or genocide participant.

17

There's no question that I have the authority to

18

impose a sentence all the way up to the maximum if I make the

19

necessary findings, but I find this subject troublesome.

20

To begin, as Mr. Lauer says, the punishment should fit

21

the offense.

Of course it should also fit the offender.

22

There's a fundamental problem here that is inherent in many

23

sentencing proceedings.

24

was convicted for tax evasion.

25

cheat or should he be sentenced as Al Capone, as a murderer and

Take the famous case of Al Capone, who

Appendix C
26

Should he be sentenced as a tax

27

1

racketeer?

And the answer is maybe either of those things or

2

somewhere in between.

3

that.

And in this case it's more complex than

Of course I need to look at all the relevant conduct,

4
5

but that doesn't really answer the question for me.

I could

6

make specific factual findings as to particular actions.

7

not comfortable doing that.

8

described by witnesses in this trial was supported by the

9

testimony of a single witness without much in the way of

I'm

Virtually every atrocity that was

10

corroboration, and at least some of the witnesses had some

11

credibility issues, at least as to some aspects of their

12

testimony.

13

as a whole, but my confidence level is not as high as it might

14

be in, let's say, a murder trial in a modern American court,

15

let's put it that way.

It's not to say I don't believe the testimony taken

There's the question of the extraterritorial reach of

16
17

this.

18

find them for human rights abuses, whether they occur in Latin

19

America or Africa or Asia or in the United States or Europe.

20

And, of course, there's a counter argument that jurisdiction

21

matters; the precise criminal charges matter; that this is not

22

an international tribunal.

23

for me to sit in judgment on the genocide in Rwanda.

24
25

There's an argument that you prosecute people where you

There's no international sanction

Of course, I certainly don't want to suggest in any
way, shape or form that this was not a terrible tragedy, one of

Appendix C
27

28

1

the worst episodes in the whole degraded and unhappy history of

2

the human race.

3

terms of killings per day or per week, or whatever the right

4

metric is.

5

that the murders were committed for the most part not by an

6

army or by secret police or even a political party but by

7

ordinary people killing their neighbors and in the most direct

8

way possible, with hatchets and machetes.

9

that it's hard to get your arms around it, to think about it

It apparently was the fastest genocide ever in

It may be the most direct genocide in the sense

It's so horrifying

10

clearly.

It's so beyond the pale of our ordinary existence

11

that it's hard to understand it or to think of it as real.

12

So where does all that take me?

13

As to the record -- the argument that his criminal

14

record is inadequate, I think that doesn't really quite fit

15

what we're doing here.

16

unscored offenses or anything like that.

17

issue is whether I should simply impose a variant non-guideline

18

sentence, if that's what I think is appropriate, or stick with

19

a guideline sentence, and if so, where within the range.

This is not an issue, for example, of
I think the real

20

Again, there is no easy answer to these questions,

21

which are pointing in absolutely opposite directions, and I

22

certainly don't want to make a statement of any kind, other

23

than the actual sentence I'm pronouncing, as to how bad this

24

genocide is or how it compared with other genocides or whether

25

I'm being light on people who commit genocide or sufficiently

Appendix C
28

29

1
2

tough on people who commit genocide.
I think where I'm coming to rest is with the

3

Sentencing Guidelines.

4

It does, to a considerable degree, balance these factors.

5

something of a fudge perhaps because all sentencing is

6

something of a fudge in the sense that you're asked to

7

reconcile things that can't be reconciled.

8

the circumstances I'm going to sentence him within the

9

guideline range, which is 78 to 97 months.

10

There is a guideline directly on point.
It's

But I think under

The next question is where within that range.

And I

11

guess I'm convinced that under the circumstances here that the

12

high end of the range is appropriate.

13

sentence of 97 months.

So I'm going to impose a

14

I do that with misgivings, as you can tell.

15

Misgivings that maybe it ought to be higher, maybe it ought to

16

be lower, but I'm just going to impose the guideline sentence

17

at the high end of the range.

18

certainly given it considerable thought, but because I think it

19

best balances the different factors that I'm being asked to

20

weigh here.

Not automatically; I've

21

I'm not going to impose a term of supervised release.

22

I do expect that he's going to be deported or removed, and I'm

23

not going to do that, and I'm not going to impose a fine

24

because there's no evidence that he has any financial

25

resources.

So the sentence will be the sentence plus the $500

Appendix C
29

30

1

special assessment, and that's what I'm going to impose.
So what I'm going to do, as is my practice, is to

2
3

formally state the sentence that I'm going to impose followed

4

by a statement of the reasons, to the extent I haven't done so

5

already.

6

any additional corrections or additions.

Then I'll give counsel a final opportunity to impose

7

Would the defendant please stand.

8

Pursuant to the Sentencing Reform Act of 1984 and

9

having considered the sentencing factors set forth at 18 United

10

States Code Section 3553(a), it is the judgment of the court

11

that the defendant Jean Leonard Teganya is hereby committed to

12

the custody of the Bureau of Prisons to be imprisoned for a

13

term of 97 months.

14

counts to be served concurrently.

15

the defendant shall pay to the United States a special

16

assessment of $500 which shall be due immediately.

This term consists of 97 months on all five
It is further ordered that

17

You may be seated.

18

In terms of the reasons for the sentence, it is a

19

non-guideline sentence -- I'm sorry -- a guideline sentence

20

imposed for the reasons indicated.

21

of supervised release as I expect the defendant will be

22

deported or removed.

23

established that he is not able, and even with a reasonable

24

installment schedule, is not likely to become able to pay all

25

or part of the fine required under the guidelines.

Again, I'm imposing no term

I'm imposing no fine because he's

Appendix C
30

And the

31

1
2
3

special assessment is, of course, mandatory.
Do counsel have any addition or correction or
objection to that sentence not previously raised?

4

I'm sorry?

5

PROBATION:

Your Honor, my apologies.

6

THE COURT:

I can't make them concurrent?

7

PROBATION:

I believe Counts Two, Four and Five have a

8

Is that --

statutory maximum of five years.

9

THE COURT:

So Two, Four and Five?

10

PROBATION:

Correct.

11

THE COURT:

All right.

So it's 60 months on Two, Four

12

and Five, and 97 months on One and Three to be served

13

concurrently.

14

PROBATION:

Thank you.

15

THE COURT:

Thank you.

16

Mr. Garland.

17

MR. GARLAND:

No objections other than those already

18

raised, your Honor.

19

THE COURT:

Mr. Lauer.

20

MR. LAUER:

No, your Honor.

I would just say that we

21

request a judicial recommendation that the sentence be served

22

at Berlin in New Hampshire.

23

THE COURT:

All right.

I will make a judicial

24

recommendation that the defendant serve his term of

25

incarceration if consistent with security and other

Appendix C
31

32

1

requirements of the prison system at the facility in Berlin,

2

New Hampshire.
All right.

3
4

The sentence is hereby imposed as stated.

Let me give him his advice of rights.
Mr. Teganya, you can appeal your conviction.

5

You also

6

can appeal your sentence, particularly if you think the

7

sentence was contrary to law.

8

costs of appeal, you may ask permission to have those costs

9

waived and appeal without paying.

If you're unable to pay the

You must file any notice of

10

appeal within 14 days after the entry of judgment.

11

request, the clerk will immediately prepare and file a notice

12

of appeal on your behalf.

Is there anything further?

13

MR. GARLAND:

14

MR. LAUER:

No, your Honor.

15

THE COURT:

All right.

THE CLERK:

All rise.

16
17
18

And if you

No, your Honor.

Thank you.

recess.

(Proceedings adjourned at 2:50 p.m.

19
20
21
22
23
24
25

Appendix C
32

Thank you.
We'll stand in

33

1

C E R T I F I C A T E

2
3
4

UNITED STATES DISTRICT COURT )

5

DISTRICT OF MASSACHUSETTS

)

6
7
8
9
10

I certify that the foregoing is a correct transcript
from the record of proceedings taken July 1, 2019 in the
above-entitled matter to the best of my skill and ability.

11
12
13
14

/s/ Kathleen Mullen Silva

9/20/19

Kathleen Mullen Silva, RPR, CRR
Official Court Reporter

Date

15
16
17
18
19
20
21
22
23
24
25

Appendix C
33

